<html>
<title> - U.S. POLICY TOWARD THE BALTIC STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                  U.S. POLICY TOWARD THE BALTIC STATES

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

                           Serial No. 115-11

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-752PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                         
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
JEFF DUNCAN, South Carolina          WILLIAM R. KEATING, Massachusetts
F. JAMES SENSENBRENNER, Jr.,         DAVID N. CICILLINE, Rhode Island
    Wisconsin                        ROBIN L. KELLY, Illinois
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Paul A. Goble, principal professor, The Institute of World 
  Politics.......................................................     7
Ms. Lisa Sawyer Samp, senior fellow, International Security 
  Program, Center for Strategic and International Studies........    13
Mr. Matthew Rojansky, director, Kennan Institute, Woodrow Wilson 
  Center.........................................................    23
Mr. Edward Lucas, senior vice president, Center for European 
  Policy Analysis................................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Paul A. Goble: Prepared statement............................     9
Ms. Lisa Sawyer Samp: Prepared statement.........................    15
Mr. Matthew Rojansky: Prepared statement.........................    26
Mr. Edward Lucas: Prepared statement.............................    42

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Robin L. Kelly, a Representative in Congress from 
  the State of Illinois: Prepared statement......................    66
Ms. Lisa Sawyer Samp: Material submitted for the record..........    68
Mr. Matthew Rojansky: Material submitted for the record..........    69
Questions submitted for the record by the Honorable Robin L. 
  Kelly and written responses from:
  Mr. Edward Lucas...............................................    71
  Ms. Lisa Sawyer Samp...........................................    72

 
                  U.S. POLICY TOWARD THE BALTIC STATES

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Good afternoon. I call the subcommittee to 
order.
    Today's hearing is focused on the Baltic region, U.S. 
policy to the countries of Estonia, Latvia, and Lithuania.
    My colleagues in Congress, other opinion makers, and policy 
deciders often refer to the danger or conflict of this region. 
The reality of what has been happening or not happening in this 
corner of the world deserves a closer and, yes, a more 
comprehensive examination. And that is what this hearing is all 
about.
    Our relationship with the Baltic people and governments has 
probably lasted 100 years. We have stood by those populations 
through the Soviet period in our firm support for the rights of 
Baltic people to freely choose their own governance and not 
have it dictated to them by the Nazis, the Communists, or 
anybody else.
    Those who know me know how strongly I believe in self-
determination. I am proud that American support helped these 
three Baltic countries reestablish their independence as 
communism collapsed in the Soviet Union. We stood by Estonia, 
Latvia, and Lithuania in the past, and they can be confident 
that we will remain the case in the future.
    The citizens of the Baltics, like citizens in the Eastern 
Europe, are not pieces on a board for foreign policy powers to 
manipulate and to control. They are fully and equally sovereign 
nations.
    Within that context, the Baltic nations were permitted to 
join NATO, which, as a consequence, has put troops that are a 
part of a hostile military alliance positioned right on 
Russia's border, a potential threat from Russia's perspective. 
Whatever you think about Russia today, it behooves us to act 
responsibly and to recognize that Russia too is a powerful 
nation, whose leaders make decisions based on their country's 
security and national interests. We do that, as well as every 
other major power.
    However, the question today remains: Has Russia stepped 
over the bounds of acceptable behavior or has the U.S. been 
overreacting?
    Since 2014, there have been numerous NATO exercises in the 
Baltics. And when we say that, that means we have had numerous 
NATO military exercises within a relatively short distance from 
St. Petersburg and Moscow and directly on the Russian border. 
Some of our witnesses today will help explain what is happening 
and what's been happening there in the Baltics and why. Knowing 
the facts of what is happening certainly will help us determine 
what America's policy toward this region should be, and what 
should our policy be toward Russia as well. But establishing 
the prerequisites for a peaceful world must remain a priority 
for us and for the Russians and for the people in the Baltics.
    One thought. We here should do our best not to confuse a 
strong U.S. policy with a confrontational policy. What is the 
goal of peace through strength? It is not just strength. It is 
peace, and that we should never lose that perspective.
    I welcome our witnesses this afternoon.
    Without objection, your full written statements will be 
made part of the record.
    So if you could, we would like to ask you to make a 5-
minute presentation, and then we will move on to questions and 
dialogue with the panel and with the members.
    I would like to focus on a few key questions. I would like 
to know about the specific acts that Russia is accused of doing 
in the Baltics. I don't want intentions. What are the specific 
acts that we should be most concerned about? And is our 
response to these specific acts reasonable or is it 
belligerent?
    With that said, would ask my ranking member, Mr. Meeks, to 
move forward with his opening statement.
    Mr. Meeks. Thank you, Mr. Chairman, and thank you for 
calling today's hearing on U.S. policy regarding the Baltics. 
It is a region we do not always get to examine in detail, but 
do not often see in the news either.
    Before my remarks, I would like to take a moment, though, 
to remember the attacks in Brussels just 1 year ago. And, 
today, we see a similar democracy being attacked again in 
London. It is a reminder that democracy is continuous, it is 
daily, and it is difficult. And we mourn those that may have 
lost their lives in the attack in London today.
    The Baltics hold a special place in modern history. I 
admire their citizens for their peaceful, brave resistance to 
the Soviet regime during the nonviolent Singing Revolution. 
Soviet repression was not able to crush their cultures, their 
people, or their thirst for freedom. A beautiful story that 
one--and one that resonates here in the United States Congress.
    The U.S. never recognized the Soviet occupation by force, 
and upon deliberation, they continued normal diplomatic 
relations. The same international laws compel us to never--
today, to never recognize the Kremlin's attempt to annex 
Crimea.
    In 1991, newly independent Lithuania, Latvia, Estonia, 
and--had to mature quickly in a dangerous post-Communist space 
where corruption, economic malice, and ethnic divisions were 
always a threat. The scars from the transformation can be seen 
and manipulated by outside actors today. Nevertheless, they are 
free. They reformed. They are banging on the doors to Europe 
saying, don't forget us. They are persistent. They joined NATO 
and the EU in 2004, and continue to play integral roles in 
both.
    Estonia takes over the presidency of the council in July, 
and I look forward to learning more about their stories on the 
ground soon.
    I am also a senior member of the Financial Services 
Committee and remember seeing the Baltic States suffer 
immensely during the financial crisis in 2008. Latvia saw its 
GDP shrink over 25 percent in less than a year, for example. 
The final result, a success story. Internal devaluation, belt 
tightening within an agreement between society and the 
government helped the small open economies turn the corner and 
enjoy sustained growth. It was not easy, but the results are a 
best practice example for dealing with the euro crisis.
    The Baltic States are also leaders in the internet age. I 
admire the Estonia movement, the dedicated push to bring the 
country to the forefront in e-commerce and e-democracy, where 
citizens can vote and register businesses online. I believe we 
have a few e-residents in the crowd today.
    However, this makes Estonia vulnerable to cyber attacks, 
which they have experienced, most notably in 2008. The result: 
Estonia is now home to the NATO Cyber Centre of Excellence, 
where all NATO member states can share and sharpen their skills 
in today's wide world.
    The region is also a leader in the push toward energy 
transformation and independence. Seeing and feeling the way the 
Russian Government uses energy as a political tool is a direct 
threat to the economies and populations in the Baltic States. A 
striking example is Lithuanian LNG terminal independence, which 
is only a part of a puzzle linking the region with a 
competitive supply of energy. Projects like this help Lithuania 
and Europe, both, from an energy and supply side and, 
importantly, from a security angle.
    Finally, the success of the three states is an important 
symbol for those who need a united and free Europe. With NATO 
support, it is an important symbol for the region as an example 
of what can be achieved with membership in the transatlantic 
organizations that the guarantee of justice and the rule of 
law. Yet as the Baltic States continue to integrate and 
flourish as democracies, they are under threat. I do not 
believe that Russian tanks will roll across their borders, but 
the threat from the Kremlin is often subtle, often denied, in 
fact--or a post-fact world, but just as real and just as 
powerful. Their tools corrupt our information sphere, our 
economies, and use cynicism only to protect kleptocracies in 
Moscow.
    I believe we have an excellent panel here to examine these 
threats and discuss the best responses. I believe we must 
support the free press, much like we recently examined with 
Chairman Royce of the full committee level. And I also would 
like to examine the role, both symbolic and economic, of 
personal sanctions, specifically, the Magnitsky Act, which goes 
after corrupt individuals, not the Russian people.
    I am also an adamant supporter of NATO and the EU's role in 
values-based transatlantic relationship and how economies and 
people are better off with it.
    To conclude, I would like to submit two excellent reads for 
the record that shaped what I am talking about today. President 
Reagan's Proclamation 4948, which created Baltic Freedom Day, 
and President Obama's speech in Tallinn in 2014. These 
documents show the continued bipartisan support for the Baltic 
States and the freedom and democracies that they bravely fought 
to establish.
    I yield back.
    Mr. Rohrabacher. Well, thank you. And I sure appreciate you 
putting some of my writing into the work.
    And then we have Mr. Fitzpatrick from Pennsylvania----
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Mr. Rohrabacher [continuing]. For 2 minutes.
    Mr. Fitzpatrick. Yes, sir.
    The fall of the USSR in 1991 ushered in a new era of 
freedom for many former Soviet Republics who had struggled for 
decades to maintain and express their national identities. The 
Baltic States of Latvia, Lithuania, and Estonia are prime 
examples of the demise of the Soviet Union and how the demise 
of the Soviet Union led to a freer and more independent Europe.
    After gaining their independence in the summer of 1991, the 
Baltic States began to craft their own economies, their own 
militaries, and even more importantly, their own identities. 
This is something that we as Americans should all appreciate.
    The Baltic States also desire to become part of the 
integrated global community by becoming both members of NATO as 
well as the European Union. However, in recent years, the 
Russian bear has once again reared its ugly head. We first saw 
this in 2008 when the Russian army invaded its fiercely 
independent southern neighbor, Georgia. In a quick but brutal 
war, the Russians showed what lengths they were willing to go 
in order to exert their dominance over their newly independent 
neighbors.
    Likewise, in 2014, Vladimir Putin covertly moved Russian 
military forces into the Crimean region, quickly seizing it. 
Subsequent that year, the Russian-backed insurgency began to 
take hold of the eastern Donbass region in the Ukraine, 
culminating in the shoot-down of a Malaysian Airlines flight 
under very suspicious circumstances, this all being done with 
limited intervention from previous administrations;
    As we look forward, it is imperative that we maintain our 
relationship with critical allies in the Baltic States. We must 
reassert America's commitment to prevent the rise of another 
Soviet block where a country's leaders are beholding to Moscow 
and not their own people.
    I yield back.
    Mr. Rohrabacher. And now Brad.
    All right, Brad, you are first.
    Mr. Sherman. Okay. I want to associate myself with the 
comments of the ranking member recognizing the people of 
Belgium and the people of the United Kingdom and what they have 
suffered, and his praise for the Baltic States.
    The foreign policy establishment has spoken. Everything 
that Putin does is wrong and, therefore, anything done by 
anyone in conflict with Putin must be right. I will spend a few 
minutes questioning that second assumption. The Baltic States 
are, indeed, praiseworthy, but they can and should do better.
    I have been in this room for 20 years, and for most of that 
time, the foreign policy establishment said anyone who focused 
on burden sharing was ignorant or worse. Now, they have caved 
in on that and, instead, clung to this 2 percent standard. It 
should be a 4 percent standard. America spends over 4 percent 
of our GDP on our military. The foreign policy establishment 
deliberately understates that by ignoring the cost of the 
veterans benefits which, after all, are compensation we provide 
our soldiers and sailors.
    Unfortunately, only one of the Baltic States even meets the 
2 percent requirement, and the others--one other is saying they 
will get to it eventually, but that leaves their armaments way 
too low a level because, for decades, they have been 
underspending. Baltic States should at least match our 4 
percent level and make up for the armaments they don't have 
because they've deliberately underspent for decades.
    NATO is important. Only one NATO country has been attacked 
during NATO, and that is the United States. We had support in 
Afghanistan. The support from the Baltic States was there, but 
incredibly modest. In contrast, the Baltic States have asked us 
for an incredibly robust response to the national security 
threats that they face, including, as the chairman points out, 
deploying American soldiers by the thousands on the Russian 
border.
    In the United Nations, I have been disappointed with the 
Baltic States support for us, voting against us again and again 
and again in the general assembly, though I support the recent 
support of two of the Baltic States in one UNESCO vote.
    And, finally, we need to urge the Baltic States to treat 
the Russian minorities with as much respect as possible and 
more respect than maybe popular in their own political--among 
their own people, especially the Estonian issue with so many 
citizens of Estonia or residents of Estonia not be--having 
Estonian passports, not being recognized as citizens. I would 
hope that there would be a system that would allow dual 
citizenship and allow these folks to have whatever rights 
Russia chooses to grant them, but to have all the rights of 
Estonian citizens.
    There are many arguments on both sides as to how the 
Russian-speaking minority should be treated, but since this 
could be a flashpoint for a major war, I would hope the Baltic 
States would err on the side of treating their Russian-speaking 
minority well.
    And I yield back.
    Mr. Rohrabacher. Thank you, Mr. Sherman.
    And now, Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Rohrabacher and Ranking 
Member Meeks for calling this hearing today and to the 
witnesses for being here to discuss a region that is vital to 
America's strategic national security interests.
    Lithuania, Latvia, and Estonia are located at Russia's 
doorstep and, in many ways, are at the forefront in the 
increasing tensions in Eastern Europe. Each of these states 
serves as an example of the ability of the people to rise out 
of the chaos of the fall of the Soviet Union, embrace democracy 
and free markets, and thrive.
    Formerly members of the Warsaw Pact, as part of the Soviet 
Union today, Estonia, Latvia, and Lithuania are vital members 
of NATO. And perhaps no countries face a graver challenge from 
the renewed aggression of Putin's Russia. The invasions of 
Georgia and Ukraine have caused many within the Baltics to fear 
for their own sovereignty as Putin attempts to delegitimize 
states that have a large Russian-speaking population. And that 
is why it is so important that the United States not waiver in 
our commitment to the NATO alliance and to our Baltic friends 
to ensure that the ties we have forged remain strong in the 
face of increased pressure.
    I look forward to hearing from our witnesses today. And I 
want to apologize in advance, we have a Judiciary Committee 
markup, so I will be in and out. But I'm anxious to hear what 
we can do to reinforce and strengthen our NATO commitments and 
to continue the strong relationships the United States has 
built with our Baltic friends. I thank you.
    And I yield back, Mr. Chairman.
    Mr. Rohrabacher. Well, thank you very much.
    And I would like to thank the witnesses for joining us 
today. I will introduce all of you, and then we will proceed.
    First, we have Paul Goble, who is a long-time expert in 
minority nationalities and the former Soviet Union. He has had 
a distinguished career working at various times for the United 
States Government, the State Department, as well as Radio Free 
Europe. He has been honored by the governments of all three 
Baltic republics for his efforts to promote their independence.
    Lisa Sawyer Samp or Sap?
    Ms. Samp. Samp.
    Mr. Rohrabacher. Samp. Okay. A senior fellow in the 
Internation Security Program at the Center for Strategic and 
International Studies. She is an expert on NATO and European 
defense strategies. And before joining CSIS, she was in a 
previous role as director for NATO and European Strategic 
Affairs on the National Security Council staff.
    We have Matthew Rojansky. He is the director of the Kennan 
Institute at the Woodrow Wilson Center. He is a leading expert 
on U.S.-Russian relations and an adjunct professor at Johns 
Hopkins. He serves as U.S. executive secretary for the 
Dartmouth Conference which is a two-track of the Russian-U.S. 
conflict resolution initiative. I hope I got that exactly 
right, but you get the picture.
    Mr. Edward Lucas is a senior editor for The Economist. And 
I might add, I read that magazine all the time. I think it is, 
frankly, the only magazine I do read all the time. He is a 
senior vice president at the Center for European Policy 
Analysis. He has been observing and writing about developments 
in Eastern Europe and that part of the world for over 20 years.
    So we are very pleased to have you and grateful to have you 
with us. So, as I say, if you could proceed with 5-minute 
opening statements or you could add to that, just for the 
record, and then we will proceed with questions from the 
members.
    Mr. Goble.

   STATEMENT OF MR. PAUL A. GOBLE, PRINCIPAL PROFESSOR, THE 
                  INSTITUTE OF WORLD POLITICS

    Mr. Goble. Thank you, Mr. Chairman. Thank you for calling 
this hearing on this most important topic and for giving me an 
opportunity to appear.
    I would like to dedicate my remarks to the late Aleksander 
Einseln, the Estonian-American colonel, who died about 10 days 
ago, who went to Estonia and became the commander of the 
Estonian Defence Forces and played a key role in transforming 
those forces into ones that could be integrated into the 
Western alliance.
    It is an ancient observation that old generals always 
prepare to fight the last war, but we don't always think about 
what that means. It often means that they look for the same 
kind of threat that happened in the past and try to counter it, 
or not seeing it, decide there isn't any threat at all, and 
that they fail to prepare for combating new threats, because 
the means they have adopted in the past to counter the threats 
of the past are no longer the ones that are most important.
    I do not believe, as long as Estonia, Latvia, and Lithuania 
are a members of the western alliance, that any Russian 
Government will send its tanks over the eastern borders of 
those countries. I think that is almost unthinkable because I 
think it is almost certainly suicidal.
    Having said that, however, I believe there is a very real 
Russian threat that flows both from the purposes that Mr. Putin 
has announced for his government going back more than a decade 
and the means he has chosen to use to pursue those purposes.
    On the one hand, Mr. Putin has clearly signaled that the 
three--that his foreign policy is driven by a desire to 
challenge the three bedrock principles of the international 
system that the United States took the lead in forming in the 
20th century. First, the 1919 settlement that declared that the 
Arab empires is over. He wants to restore one. Second, the 
settlement of 1945, which held that citizenship is more 
important than ethnicity. That is what we fought World War II 
about when the Germans thought that ethnicity was more 
important than citizenship. And 1991, when the international 
community accepted the demise of the USSR as something that was 
irreversible.
    But the other aspect of the Russian threat is also serious, 
and that is that Mr. Putin has chosen to use the strategies of 
subversion rather than the strategies of open force. Far more 
often we have seen actions by the Russian Government that are 
those of intelligence services rather than those of defense 
ministries. What that means is if you are looking for actions 
by the military, you won't find them, but if you are looking at 
what goes on in banks, in government offices, in propaganda 
outlets, they are very much there.
    Estonia, Latvia, and Lithuania have particular reasons for 
being concerned about both Mr. Putin's goals--if any of those 
are realized, they would be at risk--and his tactical approach 
because of their size and their propinquity to Russia. We in 
the United States tend to forget how small the Baltic countries 
are, how much they suffered under various aspects of Russian 
rule, and how much they have depended on the United States.
    For Putin, those three realities have a contradictory 
message. On the one hand, they mean that Mr. Putin is certainly 
aware that any military move against the Baltic countries would 
be resisted by the United States as part of its NATO alliance 
and, second, it means that Mr. Putin has an interest in 
challenging the West precisely there as a way of indicating 
that the West is more of a paper tiger than the West believes.
    I believe that what we need to do in order to promote 
Baltic security has less to do with the expansion of NATO 
presence there, although I welcome that presence, than it does 
with doing other things. And I would like to suggest three of 
what would be a very large list.
    First, as several of the members have pointed out, we need 
to encourage all three countries to complete the integration of 
ethnic minorities in their countries, that the progress that 
has been made is truly amazing. Indeed, last week, it was 
announced that there are 4,000 ethnic Russians in Estonia who 
now declare that Estonian is their native language, which is--
would have been unthinkable a decade ago. That is an impressive 
achievement. Second, we need to promote transparency of all 
economic and political activities, banking, the communication 
sector. And, third, we need to involve Estonians, Latvians, 
Lithuanians in as many conversations as possible with Russian 
counterparts.
    There are people in the West who are not interested in 
pushing that, who prefer to see the question of Russian power 
as being one that there is only a military response to. But, in 
fact, it is in these other areas that the fight is going to be 
won or lost, and, therefore, we should be spending far more 
time developing strategies in those areas than in others.
    Thank you very much.
    [The prepared statement of Mr. Goble follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Ms. Samp, you may go right ahead.

STATEMENT OF MS. LISA SAWYER SAMP, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Samp. Mr. Chairman, Ranking Member Meeks, and 
distinguished members of the subcommittee, good afternoon.
    I would like to make just two points regarding the current 
security situation in the Baltic States. My first point is 
foundational to this discussion. Russia is a threat. Russia is 
a threat to the Baltic States and, more broadly, to the post-
World War II international order.
    In the Baltics, Russia has conducted cyber attacks, 
crossborder kidnappings, and unannounced snap exercises with up 
to 80,000 troops just across the border. It has also violated 
their sovereign airspace, issued hostile statements, and filled 
their airwaves with propaganda.
    For an accurate threat picture, though, this behavior must 
be considered in the context of what Moscow has done and is 
doing beyond the Baltics. In addition to meddling in foreign 
elections, violating arms control agreements, and nuclear saber 
rattlings, Putin's bullying has escalated to the use of 
military force in Georgia, Ukraine, and Syria.
    In Ukraine, he has annexed Crimea and continues to sow 
instability and violence in the country's east. Thousands have 
died and over a million have been displayed. Let us also please 
not forget about the 298 civilians who were killed when a 
Russian-provided missile brought down a civilian airliner, or 
about the thousands of civilians killed by indiscriminate 
Russian bombs in Syria.
    Russia's actions reflect an effective blending of both 
conventional and unconventional tactics. These tactics are 
designed to circumvent U.S. and NATO redlines, confuse 
traditional response options, and use the virtues of the West 
against it.
    Putin likely doesn't want a war with the West, but he is 
finding he can get a lot done without one. For that reason, he 
has no intention of stopping now. He is becoming more 
emboldened over time and growing increasingly comfortable 
taking risks. What was once primarily an eastern-flank 
challenge is now hitting closer to home. Moscow may no longer 
be motivated by a Communist ideology that sees it trying to 
overthrow democracies and replace them with dictatorships. But 
that does not mean Russia isn't still a threat to our democracy 
and our institutions.
    The difference today is that instead of offering an 
alternative, Russia is satisfied to create chaos and sow 
instability. It wants to knock the United States down a peg and 
break Western unity so we can't call shots Russia doesn't like 
or hold it accountable to the rule of law.
    The system, though, that Russia is seeking to undermine has 
served the United States well over the past 70 years. And 
without it, the world would undoubtedly be poorer, less free, 
and less safe. Russia may just be looking out for what it 
considers to be in its national interests, but then we need to 
do the same, and that entails pushing back to protect 
ourselves, our allies, and the international order.
    This brings me to my second point, which is that the steps 
taken by the United States and NATO to bolster security in the 
region are prudent and are what is minimally required. They are 
neither hostile nor provocative.
    While Russia has not resorted to military force in the 
Baltics, and while its ever doing remains extremely unlikely, 
the possibility cannot be discounted completely. To manage this 
risk, the United States and NATO have taken steps, as described 
in my written testimony, to establish a credible deterrence. 
Far from being provocative, these steps are designed to prevent 
war and to make clear the costs that would be entailed with any 
aggression. It may, in fact, be more provocative to do nothing. 
To invite Russian opportunism by baiting it would weak 
defenses.
    While it is important to debate what constitutes credible 
deterrence and what amounts to unhelpful provocation, one can 
also err in being too cautious, lending credence to Russia's 
reflexive protests and false indignation. I would argue there 
exists a wide gulf between the steps that have been taken to 
date and the steps that could be taken in the future to 
increase the West's leverage without sparking a conflict or 
even coming close.
    Step back and recall, for example, that despite recent 
troop increases, the U.S. combat presence in Europe remains a 
full brigade-strength below what it was in 2012, prior to 
renewed tensions with Russia, and that NATO's largest exercise 
conducted since the end of the Cold War included about 30,000 
troops. By contrast, Russia's Zapad exercise planned for later 
this year may reach up to 200,000. Thus, the idea that holding 
relatively moderately sized exercises on alliance territory 
constitutes provocation seems wildly unfair.
    NATO is also not the ones flying with its transponders off, 
failing to announce exercises in accordance with the Vienna 
document, and buzzing ships in the Black and Baltic Seas. While 
it is also fair to consider the West's role in contributing to 
the current standoff with Russia, suggesting moral 
equivalencies or assigning blame does not solve the current 
problem. It neither changes how the West or Russia view their 
security interests nor makes what we seek to preserve any less 
valid.
    To conclude, none of this means we cannot still cooperate 
with Russia where it is in our interest, but rushing to make 
deals with Moscow to secure what would amount to short-term 
gains may well end up sacrificing more fundamental goals.
    Thank you.
    [The prepared statement of Ms. Samp follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    And, Mr. Rojansky.

STATEMENT OF MR. MATTHEW ROJANSKY, DIRECTOR, KENNAN INSTITUTE, 
                     WOODROW WILSON CENTER

    Mr. Rojansky. Yes. Thank you very much, Mr. Chairman----
    Mr. Rohrabacher. But you need to turn your mike on.
    Mr. Rojansky. Right. Thank you very much, Mr. Chairman, Mr. 
Meeks. I am enormously grateful to have this opportunity. And I 
have got to do this, the disclaimer: Personal views only, not 
those of the Wilson Center, which, of course, is a 
congressionally chartered memorial to President Wilson. So we 
are very grateful that we can fulfill our public interest 
mission and participate in here.
    You know, I think--I understood your question, Mr. 
Chairman, about Russia's specific acts rather than just sort of 
vague general ideas of a threat and the reasonableness of 
American response as soliciting an analysis of how the Russians 
are thinking and why. What do they intend, and is there 
evidence for their intent?
    And so I would like to tackle that problem as directly as I 
can, and I break it down into three parts. Any time that I 
think about a threat, I try to break it down into motive, 
capability, and opportunity. So those are the three parts I 
want to tackle in that order.
    In terms of motive, let's look at what Russia's actions 
have been against other states to try to discern a motive, vis-
a-vis, in particular, its neighborhood or what Russians call 
the near abroad. Generally speaking, Russians do not view other 
countries in the near abroad as fully sovereign. Certainly, not 
in the way they see themselves or the United States. Obviously, 
we know that President Medvedev talked about a sphere of 
privileged influence; the Russians have supported separatists 
in Moldova, in Georgia; they have invaded Ukraine. This is well 
known.
    In terms of specific actions against the Baltic States, 
famously in 2007, around the Bronze Soldier conflict, they 
intervened with cyber attacks against Estonia. In 2014, they 
abducted Eston Kohver, an Estonian security agent from the 
border, essentially kidnapped him. In Latvia, they have 
mobilized ethnic Russian voters, stirred up antigovernment 
sentiment in Latgallia. In Lithuania, they have mounted an 
information war disparaging living standards for Lithuanians 
and encouraging them to move to Kaliningrad, a neighboring 
exclave of Russia. And, of course, there's been sophisticated 
social media campaigns backing all of these things up.
    Now, what do Russians want in the Baltic States? Basic 
motivation. Certainly, they fear the American presence there, 
what it may lead to, but they like to maintain, basically, 
stable political and economic ties. Now, much is made of the 
Russian-speaking population. It is a tricky issue. Who is an 
ethnic Russian? Who is a Russian speaker? In terms of 
percentages, we may be dealing with somewhere between 30 and 36 
percent in Latvia, 25 to 28 percent in Estonia, 5 to 8 percent 
in Lithuania, depending on how you define those numbers. 
Sometimes they are concentrated, like in Narva and eastern 
Estonia; sometimes they are very well integrated, like in the 
city of Riga, the capital of Latvia.
    Now, Putin talks about the Russian world within which these 
people would certainly be included as being a major priority 
for Russian foreign policy and being the largest diaspora in 
Europe. He claims 25 million Russians left outside the borders 
of The Russian Federation.
    And in 2014, in a speech in Riga, Russia's commissioner for 
human rights, Konstantin Dolgov, said: It has to be stated with 
sadness that a huge number of our compatriots abroad, whole 
segments of the Russian world, continue to face serious 
problems securing their rights and lawful interests. We will 
not tolerate the creeping offensive against the Russian 
language that we are seeing in the Baltics.
    So does Russia intend to use force in the Baltics? 
Interestingly, most Russian sources say, no, they don't. Dmitri 
Trenin says Estonia, Latvia, Lithuania, and Poland are safe, 
even if they don't feel that way. The Kremlin has no interest 
in risking nuclear war by attacking a member state, and the 
sphere of Russian control to which Putin aspires certainly 
excludes these countries.
    Now, Russians would have plenty of reasons to make these 
claims, but it may be that they have other motives and 
intentions in being threatening toward the Baltic States, like 
signaling to other post-Soviet countries. In particular, 
Belarus, Kazakhstan, part of the Eurasian core countries on 
Russia's borders. And most military deployments, if you look at 
Russian military deployments, are about exerting control and 
dominance over Ukraine.
    Capability--I will keep this very short. Russia's military 
capability is stronger than it was, for sure. It comes nowhere 
close to what the United States can feel, much less the NATO 
alliance. And one of the challenges in assessing Russia's 
actual capability is the bread-and-toast problem, vis-a-vis, 
Russian troops that are simply always going to be in and around 
St. Petersburg and Kaliningrad versus troops that are there for 
the specific reason of sort of either masking or preparing for 
an attack on the Baltic States.
    But there are other capabilities of concern, nonmilitary 
capabilities. And, again, this comes back to the issue of 
Russian speakers. Russian television has been called a couch 
potato's dream, an attractive, even mesmerizing mix of frothy 
morning shows, high-decibel discussion shows, tear jerker 
serials and song contests peppered with news bulletins and 
current events shows that tow the Kremlin line. So you get the 
idea that Russian broadcasting creates a very sophisticated 
media milieu within which people are persuaded by the Russian 
world view.
    But be careful not to generalize here. At the end of the 
day, Russian speakers, ethnic Russians in the Baltic States, 
they are people. Many of them don't necessarily like Mr. Putin, 
many of them have no desire to abandon their EU citizenship, 
which they have, thanks to being citizens of the Baltic States, 
and many of them tune out from politics altogether.
    The last point--and I will end quickly here--on opportunity 
there is both good news and bad news. The good news is that Mr. 
Goble is exactly right. The Russians do not seek to provoke a 
conflict with the nuclear armed alliance in NATO, and as long 
as the Baltic States are NATO members, that is going to be the 
case. The bad news is that a crisis is still absolutely 
possible. A crisis is possible. Either imagine a scenario 
within which this ethic Russian or Russian language issue is 
provoked, even completely made up and then blown out of 
proportion by Russian media, there is a firm response from 
local authorities, and that results in a crisis. And the other 
possible crisis here is a military crisis. This so-called heavy 
metal diplomacy, a Russian aircraft coming close to an American 
ship or another NATO flag vessel.
    So definitely, in terms of motive, capability, and 
opportunity, we are looking at a real threat, a real set of 
concerns, but it is important to see it in context. Thank you.
    [The prepared statement of Mr. Rojansky follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                              ----------                              

    Mr. Rohrabacher. In context. That is good. We will be 
discussing that as we get into the questions and answers.
    And, finally, Mr. Lucas, you may proceed.

 STATEMENT OF MR. EDWARD LUCAS, SENIOR VICE PRESIDENT, CENTER 
                  FOR EUROPEAN POLICY ANALYSIS

    Mr. Lucas. Chairman Rohrabacher, Ranking Member Meeks, and 
distinguished members, it is an honor and privilege to come 
here and give testimony to this committee on this vitally 
important subject.
    I have been dealing with this issue since the early 1980s. 
My message is very straightforward and is contained in my 
written testimony. I will now go on to answer some of the 
questions that have come up in the discussion already.
    Russia is a revisionist power. It doesn't like the way the 
world is at the moment. It wants to change it. It has the means 
to do this if we don't keep ourselves united and strong. So 
far, it is doing really well, much better than many people 
would have suspected. If you had been thinking 10, 15 years ago 
that we would be discussing a threat from Russia of the kind we 
are discussing now, people would have thought that was crazy. 
It is going to get worse before it gets better.
    You mentioned in your opening remarks, Mr. Chairman, that 
we created a hostile military alliance stretching to Russia's 
border and put troops there, and the Russians don't like that. 
I think it is worth reminding ourselves why they are there. Why 
did this change? Why has this happened? And, of course, during 
the 1990s, we didn't have NATO membership for the Baltic 
States, and we expanded it for a reason. We expanded it because 
these countries were scared, and there was enough going on that 
they were right to be scared. After 2004, many people said, 
that is it, job done. Russia will not touch a NATO member, and 
there is no reason to worry about it anymore. We had no plans, 
no contingency plans for defending the Baltic States. We had no 
troop deployments there. We had no exercises there.
    That would have been a stable situation, but Russia 
provoked, undermined, and subverted the Baltic States, notably 
in the Bronze Soldier attack, but in many other things as well. 
And so after 2008, the war in Georgia, President Obama said we 
need contingency plans. We developed a plan, and then we 
increased them. There was a huge jolt which came with the 2009 
Zapad exercises, which practiced the invasion and occupation of 
the Baltic States and finished off with a dummy nuclear attack 
on Warsaw. That was a real wake-up call to the West.
    Russia tends to do the things that it rehearses, and 
everything we have done, in a much smaller scale, since then, I 
think has been a response to Russia raising the ante. Russia is 
testing our will in the Baltic States. And the best way of 
guaranteeing that we keep the peace that we have is by 
responding to that with calmness and firmness.
    You asked for specific examples. Well, I think the military 
exercise and, particularly, terrifying snap exercises, which 
happen at no notice and involve large numbers of troops 
hurdling toward the border when we have no idea, really, what 
is going on. And perhaps the biggest example, I would also 
mention the role of money in Baltic politics. And if you read 
the reports of the Estonian and Lithuanian security agencies, 
which are available on the internet, they list in chilling 
detail the things that Russia is doing inside those countries.
    I would also like to respond to the idea that it is a big 
ask from the Baltic States. They want a lot from America. Well, 
that is true. But you are not just defending them, you are 
defending the whole international order. And if you are worried 
about America's leadership in the world and you are worried 
about America's leadership in Asia and you are worried about 
whether your allies take you seriously, well, the Baltics is 
high noon. That is where it starts. If you can't defend the 
Baltic States, your treaty allies, then you have no credibility 
in other parts of the world. So you are defending the whole 
rules-based order, not just the Baltic States.
    And, finally, I would just point out that the Baltic States 
are not just consumers of security; they are also providers. 
They were warning us about this 20 years ago when we weren't 
listening. They see things that we don't see. They can go to 
places that we don't go. They understand things that we don't 
understand. And we, in my country in Britain, your country in 
the United States, and other NATO allies, we are eagerly and 
greedily lapping up some of this expertise, some of these 
capabilities they have in cyber, in intelligence, and other 
things, which fill gaps, stuff that we neglected, capabilities 
that we got rid of in the past 20 or 30 years because we 
thought we would never need them again. So they contribute a 
lot to us.
    What should we do? Well, first of all, we have got to 
understand that Russia is trying to change the rules and be 
clear that we want to defend that rules-based order. It is 
worth it. It brings peace, it brings prosperity, it brings 
freedom. It really matters.
    We need to raise the cost to Mr. Putin of his attacks, and 
I strongly endorse the point about raising visa sanctions on 
the Russian elite. We have no quarrel with the people of 
Russia. They suffer from this regime just as much as anybody 
else does, if not more. But we should say to those top 1,000, 
10,000 people in Russia, if you preach anti-Westernism, if you 
say that the West is decadent, the fount of all evil, 
imperialist, horrible, backward, and so on, well, you can't 
then expect to launder money in the West. You can't expect to 
send your kids here to be educated. You can't send your 
families here for medical treatment. You can't come here on 
holiday. We can do that. That is not a quarrel with the Russian 
people. That is targeting the sanctions on the elite.
    And, finally, I think we just need to do a bit more on 
deterrence. What NATO has done in the Baltics is very small. It 
is 1/10th, 1/20th of what Russia has done. It is already a 
game-changer. But just having a few more American soldiers in 
the Baltics would make a very big difference, because Russia 
takes you really seriously.
    And I will finish off by saying, we should look at the 
Baltic States like West Berlin. There are many things in West 
Berlin we didn't like during the Cold War. I know you, Chairman 
Rohrabacher, were a regular visitor there, and it was 
tremendously important symbolically for us. We didn't try and 
defend West Berlin militarily as West Berlin. We didn't put a 
Maginot line on West Berlin, anymore we should put a Maginot 
line down the Baltics. We said, this is where it stops. This is 
the furthest outpost of the West. And by defending West Berlin, 
we defend every member of the Western alliance, and we should 
look at the Baltic States in the same way.
    Thank you, sir.
    [The prepared statement of Mr. Lucas follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much.
    And I see we are on our own.
    Mr. Meeks. Me and you, baby.
    Mr. Rohrabacher. And me and you, baby.
    Let me start out by saying that I apologize that this is 
not a balanced panel. You all have basically the same message, 
and we should have had at least one person to present the other 
perspective, and we did not. And I am concerned about that.
    Well, I am here. There is only so much as to what I can do 
on my own. Okay.
    Let me first apologize about that, because I don't believe 
this is a balanced panel. I mean, I just have to say, you all 
are intellectuals. You all are good sources of information, but 
we need to juxtapose your arguments with someone else, and we 
didn't do it, and so we failed.
    And maybe we will have another hearing where the points 
that you have made, you could have two or three here, and maybe 
someone on the other side who could refute some of the points 
that have been made.
    So with that said, let me just go into some questions that 
will be provocative questions, anyway.
    I did ask for a specific military aggression and acts. I 
didn't seem to get any, frankly. I hear about the amassing of 
300,000 troops in Russian territory, in Russia, is an act of an 
aggression against their neighboring countries. But amassing 
NATO troops and tanks in their neighboring countries, on their 
border is not an aggression. Talk about a double standard. I 
would think that that is a major double standard.
    I will have to say that when my friend, my fellow 
journalist, a former journalist as I am, that I believe that 
the idea of declaring the Baltics like to be similar to Berlin 
demonstrates a basic perceptional problem of why we are heading 
in the wrong direction. The Cold War is over. As long as we are 
thinking about Russia as it was during that time period, and 
others, and Berlin, West Berlin, as being threatened, as it was 
at that time, in a government that was controlled by the 
Communist Party, that was an ideological-based party that 
wanted to create Marxist, atheist dictatorships throughout the 
world, replace democracies with Marxist dictatorships. That is 
not the world we live in today, and it is not the Russia. 
Russia is different than what it was.
    Now, how different? Let me just ask for some specific 
things in the Baltics. I know there was a cyber attack, which 
someone brought up; I would like to ask about that cyber attack 
in Estonia, if you know about this. I am sure you all should. 
There was a cyber attack when the Russians and the Estonians 
got into a personality match when the Estonians said, we are 
going to take down the statue that is dedicated to the Russian 
soldiers who gave their lives in liberating the Baltics from 
the Nazis. And at that point, there was a massive cyber attack, 
which really was very extensive, and it was a heavy duty attack 
by Russia on Estonia.
    How long ago did that happen? When was it? What year was 
that? When was it?
    Mr. Lucas. 2007, sir.
    Mr. Rohrabacher. 2007. And since that time, have there been 
any attacks of that magnitude in the Baltics? Any other attacks 
since 2007?
    Now, I will tell you, we have heard over and over and over 
again about the incredible cyber attacks, and that was 2007. I 
am not excusing the fact somebody is insulting. France insulted 
us a number of times, and we didn't get so angry at them that 
we punished them. There are all sorts of stories about that.
    We are talking that their 300,000 troops are a threat, but 
our NATO 30,000 aren't. Is the panel aware that we are part of 
those NATO exercises and there has been a number of them now. 
Part of that has been B-52 flights headed from England and then 
turning around at the Russian border? Does anyone here not 
considered that a provocative act?
    Ms. Samp. I do not.
    Mr. Rohrabacher. You do not. Okay. So you think a nuclear 
weapons delivery system aimed at the heart of Russia and then 
turning around right on the border is not hostile and 
provocative?
    Ms. Samp. It might be if they weren't doing the same thing 
to us. They are flying bear and blackjack bombers off the coast 
of Alaska around the outer edges of Europe. So the flights are 
a wash----
    Mr. Rohrabacher. It is not the same. Let me just note. What 
you are saying is ridiculous. It is not the same as aiming a 
flight of bombers into the capital areas, meaning St. 
Petersburg in Moscow, versus flying along a coast. Everybody 
has a right to fly along someone's coast. Now, let me ask you 
this: Are there also ships as part of those exercises that we 
had or do we have any nuclear weapons capability of carrying 
ships that were part of that? Any of you know that? Well, yes, 
there were.
    Tell me, if we actually are bringing nuclear weapons 
delivery systems to the Russian border, you don't believe that 
is provocative. Does anyone else here agree with that?
    Yes, go right ahead.
    Mr. Lucas. Sir, can I respond to that? I think one has to 
look at this in over a period of, say, 10 years, say we start 
in 2004, when we have expanded NATO and we have built quite 
good relations with Russia through the NATO-Russia Founding Act 
and the NATO-Russia Council. Things have deteriorated since 
then. But in each case, the deterioration started with actions 
on the Russian side, and we followed by much smaller actions on 
ours.
    Now, you mentioned nuclear weapons, and it is an extremely 
important point. Russia has a very large arsenal of so-called 
tactical nuclear weapons, and these are integrated into its 
military doctrine and integrated into its exercises. And they 
practice getting these nuclear artillery shells, depth charges, 
short-range weapons out of the bunkers onto delivery systems. 
And they do this again and again and again.
    We in the West have almost given up on tactical nuclear 
arms. We have very few. Those that we have are kept a very long 
way away from the Baltic States, chiefly in bunkers in the 
Netherlands. Our exercises do not involve their use.
    It is a specific part of Russian military doctrine to do 
what they call escalate to de-escalate, which means if they 
think they are losing a conventional war, they will go nuclear. 
They make no secret about that. And they talk about these 
nuclear weapons all the time in a way that the neighbors find 
terrifying, not just the NATO members. They say this to the 
Finns and to the Swedes.
    You mentioned B-52 flights. I don't know if you are aware 
of what happened on Good Friday 2014, I think it was, when a 
Russian flight carried out a dummy attack on Stockholm and on 
another very important military target in Sweden at a time when 
the Swedish Air Force had taken the weekend off because it was 
Easter. They had to scramble Danish fighters from Lithuania to 
intercept these Russians.
    In my country----
    Mr. Rohrabacher. So the Russian----
    Mr. Lucas. May I just finish?
    Mr. Rohrabacher [continuing]. In the incident you are 
describing, did they actually penetrate----
    Mr. Lucas. No. They turned around at the last minute. And 
we also had a similar event in--and if you penetrate someone--
--
    Mr. Rohrabacher. So they turned around at the last moment. 
You remember that, and you condemn that, but you don't condemn 
U.S. B-52 bombers and nuclear weapons carrying ships going 
right to the Russian border?
    Mr. Lucas. Understand that the Russians are trying to make 
us think that we have no nuclear deterrence. And they have 
said, and they say privately and publicly, they don't believe 
that NATO deterrence works. And so long as NATO is a nuclear 
alliance, we have to show that we are nuclear capable. Now, we 
have many gaps on the escalation----
    Mr. Rohrabacher. Sir, I just have to tell you that I 
believe it demonstrates a double standard that will give the 
Russians a message that we are judging our behavior differently 
than we are judging yours.
    Mr. Lucas. Can I respond to that, sir?
    Mr. Rohrabacher. Yes. Okay. I am sorry we don't have other 
witnesses here to make these points, and I am going to have to 
give it to him. But I will let you answer that, and then we 
have to go on----
    Mr. Lucas. I just want to respond to your point about West 
Berlin, sir.
    Mr. Rohrabacher. Yes.
    Mr. Lucas. You said the Cold War is over. It is true, the 
old Cold War is over. But as I said in my opening remarks, 
Russia is trying to change the rules. Russia doesn't like the 
way the world operates at the moment. It doesn't like American 
leadership. It doesn't like the Atlantic alliance. It doesn't 
like multilateral rules-based organizations by the EU, and that 
is a threat. It is not the same as the Soviet Union. It is much 
weaker. But the symbolic bastion of the West is the Baltic 
States, because they are militarily vulnerable.
    Mr. Rohrabacher. Okay.
    Mr. Lucas. And in that sense, I think it is very similar to 
West Berlin.
    Mr. Rohrabacher. Well, let me just note that Great Britain 
seems not to like the EU either. Do they? Great Britain decided 
they might not like that as well.
    And, yeah, the institutions that were created during the 
Cold War are beginning to, not evaporate, but to readjust, and 
some of them will disappear, some of them will remain strong, 
but this isn't the Cold War.
    Let me just remind you, you are looking at the ultimate 
cold warrior here. I mean, this is not some guy who, you know, 
did not believe we should confront the Soviet Union. And I was 
deeply involved with that for 20 years of my life, actually, 30 
years of my life.
    Well, anyway, we will have a second round of questions, 
even though it is just the two of us.
    Mr. Rojansky. Mr. Chairman, would it be possible before you 
move on to just add something on the----
    Mr. Rohrabacher. With permission from my----
    Mr. Meeks. Yeah. I was going to give you--okay.
    Mr. Rojansky. I appreciate that. I just feel badly, because 
I think I was invited to try to elucidate Russian thinking and 
the conclusion of much of my research into Russian analysis and 
the statements of Russian leaders and the disposition of 
Russian forces has been that while there are real causes for 
concern--and that is why I broke it into that three-part 
analysis of motive, capability, and opportunity--that, 
nonetheless, we are not facing an acute, immediate Russian 
military threat to the Baltic States. And there are two 
principal reasons for that on the military side, speaking about 
nuclear deterrence.
    One is that nuclear deterrence works. And the Russian 
sources I looked at were very clear that that is a big part of 
the reason why they wouldn't, under any circumstances, so 
assume plenty of other motives, potentially, to intervene in 
the Baltic States. The fact that you are talking about 
intervening against members of a nuclear armed alliance makes 
that--I mean, the Russian sources are very clear, they have no 
desire to provoke that, and there are certainly plenty of 
others targets that would be more desirable.
    The second issue, and I made this point very quickly 
before, and I do encourage you to take a look at my written 
remarks as well, is this issue of disposition of location, that 
even if kind of politically and psychologically the Baltic 
States may have a similar resonance to West Berlin today, they 
are in a different spot on the map. They are just a couple of 
100 kilometers away from St. Petersburg. They are, in the case 
of Lithuania, actually bordering on Kaliningrad on a heavily 
militarized Russian exclave.
    And so what that means is, there is a certain amount of 
Russian military activity we are just going to see. We are 
going to keep seeing it, and it is sort of normal that we would 
see it, because that is where Russia's population is and that 
is where their assets are.
    So I think that is why in terms of context, I think it is 
very important that we interpret Russia's actions and threats, 
not with charity, but in the context in which they are actually 
taking place and not in a sort of fear-laden fever dream kind 
of politicized context. That would be my only----
    Mr. Rohrabacher. And, Mr. Meeks. Thank you very much for 
that.
    Mr. Meeks. Thanks, Mr. Chairman. And let me say, Mr. 
Chairman, I am sure the committee would love to have maybe 
General Flynn or Paul Manafort come to testify, because they 
will have the opposite--you know, they will--hear their point 
of view. They may be great witnesses.
    Mr. Rohrabacher. Okay. Go right ahead.
    Mr. Meeks. Well, let me jump into this, because--and maybe 
I will ask Ms. Stamp, because we started and we were talking 
about that, because over the past 2 decades, since the end of 
the Cold War, you know, we talk about what we are doing or 
what--NATO is there, but the Russians have also engaged in 
exercises and have often quadrupled, is that not correct, the 
size of the NATO forces in the region? In fact, a lot of the 
Russian exercises have--you know, you have seen over 100,000 
troops. And NATO, our Baltic allies have been--you know, they 
have been talking and telling us this for years, that it is not 
just something happening on one side, but there is a threat 
that they see right across the border, 100,000 troops 
unannounced. You know, they do this unannounced.
    So my first question is, actually, has the U.S. military 
presence in Europe increased or decreased since the end of the 
Cold War? Two, is the post-Wales response enough? And what 
happens or what do you see with reference to the comparison of 
the exercises that the Russians have been going on for the last 
few years?
    Ms. Samp. Sir, thank you for that question. I would 
describe the scale of Russian activities as an order of 
magnitude greater, that is ten times greater than anything that 
NATO and the U.S. is doing. The size of the U.S. presence in 
Europe since the end of the Cold War has decreased 
dramatically. At its height, it was about 350,000 troops. That 
would have been in the late 1980s. We are now at about 62,000 
troops. With the rotational forces that we have put in since 
2014, that number has risen by about 6,000 rotational, 
nonpermanent forces.
    And is it enough? I would argue there is more to do. I 
think we should seriously consider having at least as many 
troops in Europe now as we did in 2012.
    Mr. Meeks. Does anybody disagree, agree? Mr. Goble?
    Mr. Goble. I would--Congressman, I would like to come at 
this in a slightly different way that I think speaks to that. I 
think we are wrong to both operate on a model that the Cold War 
has been restored and that the Cold War is over. The one 
implies that we are going back to a status quo ante of 1991, 
and therefore, we need to respond as we did then. The other is 
to imply that when you don't have a Cold War, the only possible 
default setting is cooperation, peace, happiness, and niceness 
with people. History suggests otherwise. There are competitions 
between countries.
    I have tried to say in my testimony, perhaps not very well, 
I tried--it is clear in my written remarks, I think this is--
that we need to address what Russia is doing less in terms of a 
military threat than in terms of the other kinds of threats it 
poses: Using subversive measures, using massive amounts of 
money. I would be far happier to learn that we were investing 
in more cyber attacks--counter cyber attack centers, that we 
were investing in more transparency in banking systems, 
especially, I would say, in the three Baltic countries, in 
Latvia, where the banks have been used as a major money 
laundering enterprise for Russian oligarchs, than to talk 
immediately about more troops anywhere. That is what I believe.
    Mr. Meeks. Let me ask this question, because I think in 
your written testimony, you do talk about the fact that you 
think the lines of communication between the Kremlin and the 
Baltic States should increase or they should be there.
    Mr. Goble. Absolutely.
    Mr. Meeks. Now, given the subversions that you are saying 
is taking place, and given that, you know, we are seeing it and 
feeling it, you know, from the hearings we just had right here 
in the United States----
    Mr. Goble. Right.
    Mr. Meeks [continuing]. As to some things with reference to 
Russia trying to get involved in our politics and democracy, do 
you think that, you know, that the suppression that Mr. Putin 
obviously has at home against the media, et cetera, and then 
the subversion that he is trying to do in other countries, will 
that ever change under Mr. Putin's leadership?
    Mr. Goble. Congressman, the good news is Vladimir Putin 
will not live forever. That is the really best news I can tell 
you from this region. Moreover, Mr. Putin has changed his own 
approach domestically and in foreign policy terms several times 
since he came to--he was installed in power at the end of 1999.
    Encouraging conversations has at least three effects, all 
of which are positive: First, if the Baltic countries show 
themselves willing to have such conversations and the Russians 
refuse to do so, the onus of not talking is clearly 
demonstrated; second, the notion that people in the Baltic 
countries are interested in talking--in having conversations 
with their Russian counterparts can be an important conduit of 
information and influence into the Russian Federation; and 
third, and this week--you know, this is something when I was 
working on Baltic affairs at the State Department 25 years ago, 
while the President of Estonia at one point famously said he 
would rather have Canada for a neighbor and that he wished 
there was a very large ocean between himself and the Russian 
Federation, the reality is that Estonia, Latvia, and Lithuania 
are going to be Russia's neighbors for a very long time.
    Now, one would like that relationship to be such that 
Estonians, Latvians, and Lithuanians will make the choices 
about what they will do rather than those choices being made in 
Moscow. And that is what this is about. But the best way to do 
that, in my mind, as I said in my written testimony, is for us 
to be promoting those kinds of transparency changes 
domestically that limit the ability of Moscow to engage in the 
subversive activities which it has been doing consistently 
since 1991.
    Mr. Meeks. Let me do this. We have a vote that is up, and I 
know my colleague may have a question. And I did want to ask 
Mr. Lucas one other question. I think that the chairman had 
made a statement, and it is important for me to know also.
    The benefits, you know, can you tell us a little bit what 
the benefits have been for the Baltic States to continue to be 
in the EU membership? And has the EU supported their liberty 
and independence in face of the aggression of Russia? And is 
there any difference--you know, and I think you being--you 
know, Mr. Rohrabacher indicated because of your accent, of 
course, and England, is there any difference of what you see 
the difference now with Brexit and NATO and the EU, and your 
opinion on that?
    Mr. Lucas. Thank you for the question. I am strongly 
against Brexit and I think it was a bad mistake by my country, 
but the position of the Baltic States is very different. There 
is overwhelming support for the EU in all three countries, and 
the benefits have been colossal, chiefly in the integration 
into decisionmaking, because in this rules-based format, small 
countries get a voice. This is not the Europe of the 19th 
century where the big countries do the deals that they can and 
the small countries accept the outcomes that they must.
    We have people in the Baltic States in really senior 
positions, and making a difference, in the EU's decisionmaking. 
Very large sums of money have flown into the Baltic States, and 
the infrastructure has been transformed by EU money. The people 
in the Baltic States have the right to live and work and travel 
all through the European Union as European EU citizens. This is 
extremely popular in the Baltic States. And I think one 
shouldn't read too into British thing wnhich is very specific 
and very, very different.
    I just wanted to relate to one other point. You were asking 
about why there are no examples of military aggression in the 
Baltic States. Well, that is because NATO works, Chairman 
Rohrabacher. And if there had been military aggression in the 
Baltic States since 2004, we would have responded in military 
terms and----
    Mr. Rohrabacher. Excuse me. Can you repeat that?
    Mr. Lucas. Sir, I was just saying you were asking why there 
were no examples of military aggression in the Baltic States. 
That is because NATO works. You know, Russia tries other stuff, 
and my fellow panelists referred to some of the examples, and I 
could give many more. But we have drawn a red line in the 
Baltics, and that is a good thing, and everybody is therefore 
better off as a result, not least the Russians.
    Mr. Rohrabacher. Thank you very much.
    We didn't have a big enough panel here. We didn't have 
anybody on the panel here to offer the other arguments. I am 
just going to have a very short closing statement and then I am 
going to have to run off and vote. We have a vote on right now. 
I am sorry we couldn't let this go on for another \1/2\ hour 
and have a better exchange.
    Look, I fought in Afghanistan against Russian troops. All 
right? I was a speech writer for President Reagan for 7\1/2\ 
years. One of the things my friend quoted was something I had 
worked on with President Reagan.
    Let me note, I just think there is a mind-set, and it is 
represented right here on the panel. I am sorry, I am going to 
be very frank with you, that we are dealing with the Soviet 
Union now, except maybe for the gentleman on the end, but this 
is not the threat that we faced. If the Russians were doing to 
us, what we are doing to them. Our manned bombers heading 
straight into Moscow and St. Petersburg. No, it is not 
justified. It is provocative and it is hostile.
    And the fact is that our Baltic friends, they don't even 
feel threatened enough to spend money for their own defense. So 
what does that tell you? That tells you that we have got people 
here, as well as there, that have a motive, in that they hate 
the Russians. All right? Not all the Baltic people hate the 
Russians, but there is hatred there for a just reason.
    While the Russians controlled the Baltics, they murdered 
millions of people. And Russians were in Eastern Europe, and 
they murdered millions of people. And, yes, that is because 
they were there when it was communism. It was communism that 
motivated that occupation. It was communism that motivated 
Russians to go in different places in the world to try to 
supplant democratic governments with atheist dictatorships. It 
was communism; it wasn't the Russian people. And I will just 
have to say that the current Russian Government is flawed 
dramatically, we all know that, but it is not the Communist 
government that existed before.
    Just this thing, I guess there was no other major cyber 
attacks that basically were able to cripple a country, except 
for the one in Estonia. I asked that. So I guess, as far back 
as 2007, we are going to start using that as an example of 
hostility today. The people in the Baltics don't think they are 
under military threat, because they don't even spend their own 
allocation for their own defense.
    And, finally, let me just say that when I look at Russia, I 
would hope that we do not judge other countries differently 
than we judge our own. And I will have to say that the United 
States has military forces all over the world today, and in 
some cases we are places that we shouldn't be. And sometimes it 
is greatly important for our national security, but the idea 
that when a Russian spy ship comes down our coast, that we all 
go crazy about it and start saying this is provocative, which 
is what I heard in the news, but it doesn't make any difference 
about us having our warships, some of which can carry nuclear 
warheads, right up next to the Russian coast.
    These double standards, we got. All I am saying is let's 
build a more peaceful world by at least dealing with the people 
who control Russia today, and try to reach an understanding, 
what is in your interest and what is in our interest. And 
today, we are acting in a very belligerent way as if, no, no, 
you don't have the right to do things in your own interest and 
to have a military exercise in your own country. We are 
comparing us having nuclear weapons delivery systems and 
thousands of troops right on the Russian border, we are saying, 
well, no, that is not aggression, but 300,000 troops inside 
Russia itself, its own country, that is aggression? This is 
nonsense, and we have got to, if we are going to have peace in 
this world, be realistic and we have to say to ourselves, how 
do we do this?
    And it is not giving up territory. Nobody is talking about 
giving up the Baltics. But let's not say over and over again, 
which I have heard, the Russian aggression in the Baltics. I 
have heard that expression, military aggression in the Baltics, 
dozens, if not 30 or 40 times used to justify a hostile foreign 
policy toward Russia. And I will tell you, nothing that I have 
heard today justifies that phrase being used: Russian military 
aggression in the Baltics.
    So with that said, I want to thank our panel. I am sorry 
that I was able to do this tirade at the end. I really wanted 
it to be an exchange where you could refute me, and back and 
forth, because that is what we are supposed to have here, but I 
have to go vote and my friend has to go vote as well.
    I want to thank you very much. And thank you for putting up 
with me venting at the very last minute without your chance to 
retort. But if you would like to put in the record a retort, we 
will do it. Okay? Thank you all very much.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
        
         
                                   [all]
</pre></body></html>
